filed
°EC 0 8 2020

In The

Supreme Court of the United States

Morgan Joseph Langan,
Petitioner,
v.
United States, State of Arizona,
Respondents.

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Federal Circuit

PETITION FOR A WRIT OF CERTIORARI

Morgan Joseph Langan
Post Office Box 741
Cornville, Arizona
United States of America
(928) 649-1921
morganlangan@yahoo.com
Petitioner

RECEIVED
DEC 1 4 2020

VS8S&38SH&

1

QUESTION PRESENTED
Does the State of Arizona possess the transcen­
dental sovereignty to take away petitioner’s vested
rights in private property by a mere legislative act that
usurps the power of the judicial branch and alters the
nature of our republican and free government as guar­
anteed under Article IV § 4 of the Constitution for the
United States of America?

11

PARTIES TO THE PROCEEDING
Morgan Joseph Langan was the plaintiff in the
United States Court of Claims and Appellant in the
United States Court of Appeals for the Federal Circuit.
Respondents the United States and the State of Ari­
zona were the defendants in the Court of Claims pro­
ceedings and appellees in the court of appeals
proceedings.
RELATED CASES
United States District Court, District of
Arizona-Case No. CV-15-08120-PCT-DGC
(SEALED)
Supreme Court of the United States Case
No. 15-9808 Morgan Joseph Langan v. ZB,
National Association, et al.
United States Bankruptcy Court, District
of Arizona Case No. 3:18-bk-01019-DPC
and Adversary No. 3:18-ap-00048DPC. In
re: MORGAN JOSEPH LANGAN
United States Court of Federal Claims
Case No. 18-900C MORGAN JOSEPH
LANGAN v. THE UNITED STATES.
United States Court of Federal Claims
Case No. l:18-cv-01603-LKG Morgan Jo­
seph Langan v. United States and State
of Arizona
United States Court of Appeals for the
Federal Circuit Case No. 2020-1057

Ill

TABLE OF CONTENTS
Page
Question Presented..................................................

1

Parties to the Proceeding........................................

11

Related Cases...........................................................

n

Table of Contents.....................................................

in

Table of Authorities.................................................

v

Petition for a Writ of Certiorari.............................

1

Opinions Below........................................................

1

Jurisdiction...............................................................

1

Constitutional Provisions Involved........................

6

Statement of the Case.............................................. 10
Reasons for Granting this Petition......................... 13
I. The special acts of the State of Arizona
legislature have barred petitioner’s right
to petition this government for a redress
of grievances.................................................
II. Arizona Citizens are entitled to the rights,
privileges and immunities available to
Citizens in the several states.....................
III. A republican form of government consists of
three co-equal branches of government.....
IV. Each State shall give full faith and credit
to the public acts, records and judicial pro­
ceedings of the State of Arizona................

16

18
19

21

IV

TABLE OF CONTENTS - Continued
Page
Petitioner was required by contract to de­
fend title to his land and property; State
laws impaired this obligation. The law al­
lowed a party not named in the contract to
determine title to private property, absent
judicial review.............................................. 22
26
Conclusion
V.

APPENDIX
Court of Appeals Opinion filed May 6, 2020

..App. 1

Court of Appeals Order filed May 21, 2020 .

App. 11

District Court Memorandum Opinion and Order
App. 13
filed September 24, 2019
District Court Memorandum Opinion and Order
App. 25
filed August 16, 2019
Court of Appeals Denial of Rehearing En Banc
App. 45
filed July 21, 2020

V

TABLE OF AUTHORITIES
Page
Federal Equity Rules of 1912, James Love Hop­
kins ...........................................................................

3,5

Commentaries on Equity Jurisprudence (1836)
Joseph Story...........................................................

2

Commentaries on the Constitution (1938) Jo­
seph Story. Justice Story’s words are used ex­
tensively throughout this petition.....................

2

Suits in Chancery, Henry R. Gibson, Second Edi­
tion 1907..................................................................

4

The Federalist Papers Nos. 78, 80, 83...................

2

Cases:
Boddie v. Connecticut, 401 U.S. 371 (1971)..........

8

Brock v. Roadway Exp., Inc., 481 U.S. 252 (1987).

8

Cleveland Bd. of Educ. v. Loudermill, 470 U.S.
532(1985)...............................................................

8

Gelboim v. Bank ofAmerica Corp. et al. 13-3636cv (L) 2nd Circuit (Decided 5/23/2016).............

23

Georgia v. Brailsford, 3 U.S. (3 Dali.) 1 (1794)....

17

Moran v. Clarke, 296 F.3d 638 (8th Circuit)........

9

Murr v. Wisconsin, 137 S.Ct. 1933 (2017)............ 7,13
Slusarchuk v. Hoff, 346 F.3d 1178 (8th Cir.
2003)........................................................................

9

United States v. Eight Thousand Eight Hundred
& Fifty Dollars ($8,850) in U.S. Currency, 461
U.S. 555 (1983)......................................................

8

1
PETITION FOR A WRIT OF CERTIORARI
On petition for a writ of certiorari to the United
States Court of Appeals for the Federal Circuit, Morgan
Joseph Langan petitions this Court to review the
judgement of the United States Court of Appeals for
the Federal Circuit.

OPINIONS BELOW
The Court of Federal Claims Ca'se No. 18-1603C,
opinion filed August 16, 2019 is not published, repro­
duced at App. 25-44. Motion for Reconsideration was
denied September 24,2019 and reproduced at App. 1324. The Court of Appeals for the Federal Circuit Case
No. 20-1057 decided May 6,2020 reproduced at App. 112; Petition for Rehearing En Banc denied July 21,
2020, reproduced at App. 45, 46.

JURISDICTION
A timely filed petition for rehearing was denied by
the United States Court of Appeals for the Federal Cir­
cuit on 21 day July, 2020 A.D. This petition is timely
filed under the Court’s 150 day COVID-19 extension.
This Court has appellate jurisdiction under 28 U.S.C.
§1254(1) and original jurisdiction under Article III
§ 2 Subsection 2 in this case in which a State is a party
under the judicial power that extends to this contro­
versy to which the United States is a party.

2

EQUITY JURISDICTION
Petitioner invokes this Courts’ exclusive equity
jurisdiction to provide relief in this exceptional case in
which the law provides no remedy. The State of Arizona
created laws that eliminate substantive rights guaran­
teed by the constitution and that impair the obliga­
tions of private contracts. As Alexander Hamilton
explained in Federalist, No. 80, “there is hardly a sub­
ject of litigation between individuals, which may not
involve those ingredients of fraud, accident, trust, or
hardship, which would render the matter an object of
equitable rather than of legal jurisdiction.” Hamilton
elaborated in Federalist, No. 83, that “the great and
primary use of a court of equity is to give relief in ex­
traordinary cases, which are exceptions to general
rules.” Supreme Court Justice Joseph Story, echoed
Hamilton, in Commentaries on Equity Jurisprudence
(1836) writing that “cases must occur to which the an­
tecedent rules cannot be applied without injustice, or
to which they cannot be applied at all.”
Justice Story identifies in § 856 Commentaries on
the Constitution (1838) that a case is “a suit in law or
equity, instituted according to the regular course of
judicial proceedings; and involves any question arising
under the constitution, laws, or treaties of the United
States, it is within the judicial power confided to the
Union.” Additionally, Justice Story confirms in § 860:
“Agreements to convey lands, claimed under the grants
of different states, may afford another example of the
necessity of an equitable jurisdiction in the federal
courts.” The State of Arizona granted parcel numbers

3
associated with the land subject to this case that are
in conflict with land patent #791 granted by United
States of America prior to the formation of the State.
Joseph Story provides the context for the contracts
foundational to this case in his Commentaries § 860.
“It has also been asked, and may again be asked, why
the words, “cases in equity,” are found in this clause? It
is the peculiar province, for instance, of a court of equity,
to relieve against what are called hard bargains. These
are contracts, in which, though there may have been no
direct fraud or deceit, sufficient to invalidate them in a
court of law; there may have been some undue, and un­
conscionable advantage taken of the necessities, or mis­
fortunes of one of the parties, which a court of equity
would not tolerate”
Chief Justice Taney stated in Bennett v. Butterworth, 11 How. 669, 674,13 L. Ed. 859: “The Constitu­
tion of the United States, in creating and defining the
judicial power of the general government, establishes
this distinction between law and equity, and a party
who claims ... an equitable (title), must proceed ac­
cording to rules which this court has prescribed (under
the authority of the Act of August 23,1842), regulating
proceedings in equity in the courts of the United
States.” Quoted from and as promulgated in Hopkins
Federal Equity Rules, 1912, where the Rule applicable
to this case is found on page 3, paragraph 2: “And the
Federal Courts may not lawfully transform by order or
amendment... an original suit in equity into an action
at law.” This suit commenced in equity and has been
transformed by order and amendment into an action

4
at law where the record documents that petitioner was
deprived of property under color of law and without
due process of law therefore this case arises under the
Constitution in order to remove the legal clog upon pe­
titioner’s equitable titles in order to preserve his right
to petition the government for redress of grievances
under Amendment 1. The rule is: “Equity will not suf­
fer a wrong without a remedy.” Suits in Chancery, H.
R. Gibson, 2nd Edition 1907 Chapter III Article I § 31
& 33.
The Judicature Act of 1875 and 1 Pomeroy Equity
Jurisdiction (5th ed. p. xxiv) provide precedent for
granting this petition: “Generally, in all matters in
which there is any conflict or variance between the
rules of equity and the rules of common law with ref­
erence to the same subject matter, the rules of equity
shall prevail.” Quoted in Rudisill v. Whitener, 146 N.C.
403 (1907), Ex Parte Sedillo, 34 N.M. 98 (1929), Hack
v. Concrete Wall Company, 350 Mich. 118 (1957), Fairey
v. Gardner, 233 S.C. 297 (1958), Jaffe-Spindler Co. u.
Genesco, Inc., 747 F.2nd 253 (4th Circuit N.J. 1984).
The opinion in this case issued by the U.S. Court of
Appeals for the Federal Circuit (USCAFC) is split
with the decision of the 4th Circuit and the states
identified herein. The conflicts and variances between
the rules of law and the rules of equity are hereby sub­
mitted.
The USCAFC denial of relief proves beyond a rea­
sonable doubt that there is no remedy or equal justice
at law in this case. Therefor a circuit split exists with
the decision of the 4th Circuit N.J. and multiple state

5

supreme courts where the rules of equity prevail when
there is a conflict or variance with the rules of law as
are present in this case. Justice Story clarified the de­
finitive rule that applies to this case in § 852 of Com­
mentaries on the Constitution: “The propriety of the
delegation of jurisdiction, “in cases arising under the
constitution,” rests on the obvious consideration, that
there ought always to be some constitutional method
of giving effect to constitutional provisions.”
Petitioners’ allodial title and freehold standing on
the land when merged with his private status as an
American, grants his capacity as one of the people to
petition this Court for a redress of grievances under
the constitution. Petitioner seeks the good reason and
good conscience of the justices that they may act as
keepers of the people’s conscience at this critical time
in the history of our great Nation and prays for the
protection of this Court of equity to grant equal protec­
tion under the law of the land while seeking the proce­
dural protections provided by former rule 48.2 of this
Court and the 1912 Federal Equity Rules. This case
provides a vehicle in support of this Court’s appellate
jurisdiction and to say what the law is regarding the
legal, equitable and equal protection of private prop­
erty rights for all Americans.

6

CONSTITUTIONAL PROVISIONS INVOLVED
Article I § 10 subsection 1: “No State shall
. . . pass any . . . law impairing the obligation
of contracts.”
Article III § 2 Subsection 1: “The judicial
power shall extend to all cases in Law and Eq­
uity. . . .”
Article IV § 1, § 2 Subsection 1 and § 4:
“The United States shall guarantee to every
State in this Union a republican form of gov­
ernment.”
Amendment I: “The (R)ight of the people . . .
to petition the government for a redress of
grievances (shall not be abridged).”
Amendment IV: “The right of the people to
be secured in their persons, houses, papers
and effects . . . shall not be violated.”
Amendment V and as in the Arizona Con­
stitution Article II § 4: “No person shall be
deprived of life, liberty, or property without
due process of law.”

INTRODUCTION
In the State of Arizona and similarly in 26 other
States a citizen’s right to possess, use and dispose of
private property is not reviewed by a judge when a
party conducts a non-judicial foreclosure sale. Across
the boarder in New Mexico, and 22 other states of the
Union, a citizen holds a right to challenge claims

7
entered against title prior to seizure of his land and is
entitled to have a judge review the claims made by an­
other party. In Arizona, title is determined by the one
making the claim. As shocking to the conscience as this
may be, the record in the Court of Claims verifies this
truth. This State process granted the non-judicial tak­
ing of private property. In this case, no judge reviewed
a creditor’s claimed title prior to invoking the State’s
power to seize petitioner’s home and no court has re­
dressed this grievance even since the claim has subse­
quently been proven to be based upon fraudulent
documents on exhibit in the lower courts.
This case represents a historic opportunity for this
Court to give effect to the constitutional powers that
have been usurped by the State as taken from the ju­
diciary by the legislative and executive branches of the
government. Speaking in dissent in Murr v. Wisconsin,
137 S.Ct. 1933 (2017), Chief Justice Roberts clarified
“the word property in the takings clause to mean the
group of rights inhering in a citizen to a thing, as the
right to possess, use and dispose of it. Property inter­
ests are created and their dimensions are defined by
existing rules or understandings that stem from an in­
dependent source such as state law.” State law that
takes private property and transfers it to another
party is contrary to the supreme law of the land when
accomplished without due process and judicial review.
Additionally, the State of Arizona legislature excluded
the judicial branch from defining property interests or
even reviewing existing rules. This form of State law is

8

not an independent source to define property interests
that were created in a higher dimension.
In this Court “The general rule, of course, is that
absent an ‘extraordinary situation’ a party cannot in­
voke the power of the state to seize a person’s property
without a prior judicial determination that the sei­
zure is justified.”; Brock v. Roadway Exp., Inc., 481 U.S.
252, 261-62 (1987) (plurality). See, also United States
v. Eight Thousand Eight Hundred & Fifty Dollars
($8,850) in U.S. Currency, 461 U.S. 555, 562 n.12
(1983). This Court consistently expresses a clear, sim­
ple constitutional rule: Due process requires “that an
individual be given an opportunity for a hearing before
he is deprived of any significant property interest.”
Boddie v. Connecticut, 401 U.S. 371, 379 (1971). This
rule has limited exceptions that are triggered only by
truly exigent circumstances not present in this case.
This Court has reiterated this rule many times.
“[T]he Court has upheld procedures affording less than
a full evidentiary hearing if some kind of a hearing en­
suring an effective initial check against mistaken deci­
sions is provided before the deprivation occurs, and a
prompt opportunity for complete administrative and
judicial review is available.” (internal quotation marks
omitted); Cleveland Bd. ofEduc. v. Loudermill, 470 U.S.
532, 542 (1985) (quoting Boddie, 401 U.S. at 379). In
this case the record documents that no administrative
or judicial review was provided before the deprivation
occurred.

9
Procedural due process imposes constraints on
governmental decisions that burden protected inter­
ests in life, liberty, or property, see Mathews v. Eldridge,
424 U.S. 319,332 (1976), while substantive due process
protects against official conduct that is conscienceshocking and violates a fundamental right that is
deeply rooted in history, and supported by the concept
of ordered liberty. Slusarchuk v. Hoff, 346 F.3d 1178,
1181-82 (8th Cir. 2003) (citing Moran v. Clarke, 296
F.3d 638, 651 (8th Circuit)). The record documents the
shocking consequences of the legislative acts of the
State of Arizona that violate both procedural and sub­
stantive due process rights without redress or remedy
at law.
State of Arizona non-judicial foreclosure laws pre­
cluded the remedy granted by the Arizona Constitu­
tion requiring due process prior to depriving a citizen
of property. Petitioner accepted a grant from the
State of Arizona in the Arizona Constitution Article II
Section 4: “No person shall be deprived of life, liberty,
or property without due process of law.” Justice Story
concludes in § 697 that “(A) grant is in fact a contract
executed ... A state law therefore annulling convey­
ances between individuals, and declaring, that the
grantors shall stand seized of their former estates not­
withstanding those grants, would be as repugnant to
the constitution, as a state law discharging the vendors
from the obligation of executing their contracts of sale
by conveyance.” State laws prevented petitioner from
fulfilling his obligation to defend title to his land while

10
the record clearly demonstrates that no remedy exists
at law to redress these grievances.

STATEMENT OF THE CASE
Justice Story eloquently summarizes the question
presented by this case in his Commentaries § 712:
“Whether indeed, independently of the constitution of
the United States, the nature of republican and free
governments does not necessarily impose some re­
straints upon the legislative power, has been much dis­
cussed. It seems to be the general opinion, fortified by a
strong current ofjudicial opinion, that since the Amer­
ican revolution no state government can be presumed to
possess the transcendental sovereignty to take away
vested rights of property; to take the property ofA and
transfer it to B by a mere legislative act. A government
can scarcely be deemed to be free, where the rights of
property are left solely dependent upon a legislative
body, without any restraint. The fundamental maxims
of a free government seem to require, that the rights of
personal liberty, and private property should be held
sacred. At least, no court of justice, in this country,
would be warranted in assuming, that any state legis­
lature possessed a power to violate and disregard them;
or that such a power, so repugnant to the common prin­
ciples ofjustice and civil liberty, lurked under any gen­
eral grant of legislative authority, or ought to be
implied from any general expression of the will of the
people, in the usual forms of the constitutional delega­
tion of power. The people ought not to be presumed to

11
part with rights, so vital to their security and well­
being, without very strong, and positive declarations to
that effect.”
The question in this case asks whether the legis­
lature of the State of Arizona may take away peti­
tioner’s vested rights in private property then transfer
that property to another party outside the require­
ments of the Constitution. Justice Story confirms this
to be an act the State of Arizona has no power to un­
dertake. Additionally, petitioner shows the Court that
the taking of petitioner’s property, peculiar to this case,
was based upon documents that were subsequently
proven to be fraudulent. Those documents are on ex­
hibit in the lower courts. Had State court preserved
the power to review these documents and the titles
held by each party this travesty of justice would never
have occurred.
Banking factions acting under charter from the
United States have invaded the State of Arizona lob­
bying for laws to be enacted by the State legislature
that override the constitutional guarantees for due
process and judicial review. These laws denied peti­
tioner equal protection under the law. State legislative
acts deprived petitioner of property and did not re­
quire a bank to produce even the formality of proof of
title while being unjustly enriched. Justice Story in
§ 678 Commentaries expresses that creating such a
legislative act. . . “constitutes an irresistible argument
against the existence of the power. In a free government
it would be intolerable; and in the hands of a reigning
faction, it might be, and probably would be, abuse to the

12
ruin and death of the most virtuous citizens” This case
documents the unconstitutional conditions that re­
sulted in the destruction of petitioner’s rights, trust
in local government and impairment of contractual
agreements with Wall Street banking factions. (See
also Appendix “Q” in USCAFC; four hundred fifty-six
pages providing a detailed explanation of the role of
these banking factions.) In the Federalist Paper No. 78,
Alexander Hamilton warned: . . . “there is no liberty,
if the power of judging be not separated from the leg­
islative and executive powers”.
Therefor, an unconstitutional condition exists in
the State of Arizona where the State legislature exer­
cised power greater than the coequal judicial branch.
The power to determine title to private property has
been usurped from the judiciary and absorbed by the
legislature. The people intended that Arizona have a
republican form of government which is impossible
without an independent judiciary.
Arizona Citizens have been denied equal access to
an independent judiciary that is part of one whole sys­
tem of justice. This Court’s supervisory power is the
last line of defense for this American and every Amer­
ican similarly situated. As exhibited by the record an
independent judiciary is essential to protect basic un­
alienable rights of life, liberty, and the pursuit of hap­
piness. Foundational to this trust agreement is the
truth that being secure in one’s home is an essential
element of happiness. In this case, petitioner’s home
was seized and his family terrorized by State officers
using weapons in the collection of a private extension

13
of credit powered by a bank operating under charter as
a law of the United States using fraudulent instru­
ments now on exhibit in the record of the courts below.
Plaintiff has diligently petitioned the government to
redress these grievances.
Banks under charter from the United States in­
voked the power of the State to seize petitioner’s prop­
erty without a prior judicial determination that the
seizure was justified. Chief Justice Roberts completes
the statement of this case from Murr v. Wisconsin, 137
S.Ct. 1933 (2017), “In that the takings clause stands as
a buffer between property owners and governments,
when government action interferes with property
rights, the next question becomes whether that inter­
ference amounts to a “taking”. The paradigmatic tak­
ing is a direct government appropriation or physical
invasion of private property. Depriving the owner of
the right to possess, use and dispose of the property, is
an action giving rise to a “per se taking” because it is
perhaps the most serious form of invasion.” In this case
a military style SWAT team invaded petitioner’s home
with weapons drawn and using fraudulent paperwork
provided by a bank that was never reviewed by a judge;
this must be considered a classic example of a per se
taking.

REASONS FOR GRANTING THIS PETITION
This case provides the court with an opportunity
to say what the law is throughout the land. According
to this Court’s rules, primary consideration in selecting

14
cases for review is “To decide cases presenting issues
of great importance beyond the particular facts and
parties involved.” Top of mind importance to every
American today, particularly during this current emer­
gency in the form of a “health crisis”, is the power being
exerted by the States over the people of the state often
in violation of Constitutionally protected rights. 50
States issuing 50 different executive orders and man­
dates perhaps with the good intention to ensure a
balance between the overall health and welfare of
the general public while considering constitutional lib­
erties. While some States provide guidelines and rec­
ommendations that most people seem to support to
prevent an overrun of our healthcare capacity, others
are fining or even putting individuals in jail under the
color of law for violations.
As an example, Attorney General of the State of
Louisiana Jeff Landry issued opinion No. 20-0068, on
July 15, 2020 addressing the issues facing his State
and identifying the constitutional violations related to
orders issued by the State’s governor as empowered by
special State legislative acts. Each of the 50 States
have created legal provisions to deal with a variety of
emergency situations; some suspend constitutional
protections in order to prescribe the procedures for
conduct of State business; there are no provisions that
permit city councils, county boards or even governors
to enact substantive law that override constitutional
guarantees intended to perfect our Union.
The States have been emboldened by the ability
to overcome the due process of law guarantee that is

15
included in most state constitutions and the federal
constitution requiring judicial review. Since a State
has been allowed to violate this sacred principle; the
next level is forcing citizens to stay away from their
church and family members.
The grant to be secure in one’s house against un­
reasonable seizures is foundational to our American
way of life. Even though it was granted by the people,
I as one of the people may not, of course, seize my
neighbor’s property without judicial review to deter­
mine if I held the title to do so. Therefor neither may
the government. This fundamental principle of fair­
ness, justice and equity has been ignored far too long
by this government. Silence on this issue has allowed
us to get to this very dangerous situation where indi­
vidual constitutional rights are being overridden by
what the government considers to be the “greater good”
of all. This may be a temporary right granted govern­
ment during an emergency, yet when the emergency
has ended so has the government’s right. These are
very real issues that this Court now has an oppor­
tunity to address by granting this petition.
This is a call for this Court’s supervisory power to
perfect our union under one whole system of justice
and to resolve the obvious split between the States 27
to 23 and the resulting circuit splits; including also
that some circuits preside over both judicial and non­
judicial States.

16
I.

The special acts of the State of Arizona leg­
islature have barred petitioner’s right to
petition this government for a redress of
grievances.

Under the pretext of res judicata yet absent judi­
cial review the decisions of the State courts have not
been reviewable by any court. The Constitution for the
United States of America guarantees to Arizona and
its private citizens a Republican Form of government,
however, absent an independent judicial branch an
Arizona Citizen is not entitled to the privilege and im­
munity of due process and judicial review guaranteed
to a Citizen in New Mexico or one of the several other
22 judicial foreclosure States. Justice Story addresses
this in Commentaries § 818: “ Where there is no judicial
department to interpret, pronounce, and execute the
law, to decide controversies, and to enforce rights, the
government must either perish by its own imbecility, or
the other departments of government must usurp pow­
ers, for the purpose of commanding obedience, to the de­
struction of liberty. The will of those, who govern, will,
under such circumstances, become absolute and des­
potic; and it is wholly immaterial, whether power is
vested in a single tyrant, or in an assembly of tyrants.
No remark is better founded in human experience, than
that of Montesquieu, that “there is no liberty, if the ju­
diciary power be not separated from the legislative and
executive powers.” And it is no less true, that personal
security and private property rest entirely upon the wis­
dom, the stability, and the integrity of the courts ofjus­
tice. If that government can be truly said to be despotic

17
and intolerable, in which the law is vague and uncer­
tain, it cannot but be rendered stilly more oppressive
and more mischievous, when the actual administration
ofjustice is dependent upon caprice, or favour, upon the
will of rulers, or the influence ofpopularity. When power
becomes right, it is of little consequence, whether deci­
sions rest upon corruption, or weakness, upon the acci­
dents of chance, or upon deliberate wrong. In every well
organized government, therefore, with reference to the
security both ofpublic rights and private rights it is in­
dispensable, that there should be a judicial department
to ascertain, and decide rights, to punish crimes, to ad­
minister justice, and to protect the innocent from injury
and usurpation.”
Foundational and unique to this case is the right
of the people to petition the government for a redress
of grievances and especially considering the ongoing
use of petitioner’s incorrect name, standing and status
by the lower courts including the requirement that he
participate in the system of commerce created by bank­
ing entities under emergency declarations contrary to
the constitution. Given the peculiar nature of this case,
should it be determined by this Court that it would be
in the best interests of justice that a special jury be
empaneled to determine both the facts and law that
shall prevail in this case; petitioner is prepared to brief
the Court in this regard using as precedential, Georgia
v. Brailsford, 3 U.S. (3 Dali.) 1 (1794).
At issue in that case as in this, is the ownership
and the extinguishment of debt. The current commer­
cial system that separates Americans from rights

18
granted under the Constitution, has placed the people
at odds with their government. Especially considering
the constitutional prohibition against the State of Ari­
zona demanding a thing, other than gold and silver
coin, be tendered in payment of debts. Article I § 10
subsection I of the Constitution.
II.

Arizona Citizens are entitled to the rights,
privileges and immunities available to Cit­
izens in the several states

Under Article IV § 2 subsection 1 of the Constitu­
tion, an Arizona Citizen is entitled to the privileges
and immunity of due process and judicial review avail­
able to Citizens in several States that maintain a coe­
qual judicial branch and are thus protected by a
republican form of government. Once again we rely
upon Justice Story’s interpretation of the founder’s in­
tentions in § 819 of his Commentaries: “In the national
government the (judicial) power is equally as important
as in the state governments. The laws and treaties, and
even the constitution, of the United States, would be­
come a dead letter without it. Indeed, in a complicated
government, like ours, where there is an assemblage of
republics, combined under a common head, the neces­
sity of some controlling judicial power, to ascertain and
enforce the powers of the Union, is, ifpossible, still more
striking. The laws of the whole would otherwise be in
continual danger of being contravened by the laws of
the parts. The national government would be reduced
to a servile dependence upon the states; and the same
scenes would be again acted over in solemn mockery,

19
which began in the neglect, and ended in the ruin, of
the confederation. Power, without adequate means to
enforce it, is like a body in a state of suspended anima­
tion. For all practical purposes it is, as if its faculties
were extinguished. Even if there were no danger of col­
lision between the laws and powers of the Union, and
those of the states, it is utterly impossible, without some
superintending judiciary establishment, that there
should be any uniform administration or interpreta­
tion of them. The idea of uniformity of decision by thir­
teen independent and co-ordinate tribunals (and the
number is now advanced to (fifty)) is absolutely vision­
ary, if not absurd. The consequence would necessarily
be, that neither the constitution, nor the laws, neither
the rights and powers of the Union, nor those of the
states, would be the same in any two states. And there
would be perpetual fluctuations and changes, growing
out of the diversities ofjudgment, as well as of local in­
stitutions, interests, and habits of thought.”
III. A republican form of government consists
of three co-equal branches of government.
Under the current form of the State of Arizona
government, the legislative branch has the power to
exclude the judicial branch from reviewing laws cre­
ated by the legislature. Particularly disturbing about
this usurpation of judicial power is that it has led to
violations of both the state and United States consti­
tutions. Under Article IV § 4, the United States is em­
powered to restore a republican form of government to
Arizona and its private Citizens. Establishing three

20
coequal branches of state government is an essential
element of this Constitutional guarantee.
Returning power to the state judicial system to
oversee titles to land and property is a critical require­
ment of this guarantee. This can be accomplished in
this case by ruling that State non-judicial foreclosure
laws Arizona Revised Statutes A.R.S. Title 33 § 801 to
821 violated petitioner’s constitutionally protected
rights to due process and judicial review. Plaintiff re­
lies upon Justice Story’s wisdom in Commentaries
§ 834: “(T)he independence of the judiciary is indispen­
sable to secure the people against the intentional, as
well as unintentional, usurpations of the executive and
legislative department. It has been observed with great
sagacity, that power is perpetually stealing from the
many to the few; and the tendency of the legislative de­
partment to absorb all the other powers of the govern­
ment has always been dwelt upon by statesmen and
patriots, as a general truth, confirmed by all human ex­
perience. If the judges are appointed at short intervals,
either by the legislative, or the executive department,
they will naturally, and, indeed, almost necessarily, be­
come mere dependents upon the appointing power. If
they have any desire to obtain, or to hold office, they will
at all times evince a desire to follow, and obey the will
of the predominant power in the state. Public justice
will be administered with a faultering and feeble hand.
It will secure nothing but its own place, and the appro­
bation of those, who value, because they control it. It
will decree, what best suits the opinions of the day; and
it will forget, that the precepts of the law rest on eternal

21
foundations. The rulers and the citizens will not stand
upon an equal ground in litigations. The favourites of
the day will overawe by their power, or seduce by their
influence and thus, the fundamental maxim of a repub­
lic, that it is a government of laws, and not of men, will
be silently disproved, or openly abandoned.” Banks hold
the economic power in the State and the legislature
tends to follow and obey their will where Citizens are
not equal under State law as exhibited in this case.
IV. Each State shall give full faith and credit
to the public acts, records and judicial pro­
ceedings of the State of Arizona.
This Court’s supervisory power is requested to in­
terpret Congress’s intention in prescribing the manner
in which the public records and judicial proceedings of
the State of Arizona must be changed in order to com­
ply with the requirements under Article IV § 1 of the
Constitution for the United States. Official county rec­
ords in Arizona are not audited. The effects of this in­
action has been proven by audit in other non-judicial
foreclosure states for example by Essex County Mas­
sachusetts Register of Deeds John O’Brien “My regis­
try is a crime scene . . . every day I come in and look at
over 40,000 fraud documents that have corrupted
homeowners’ chains of title.”; and in San Francisco, As­
sessor-Recorder Phil Ting, “84% of sampled foreclo­
sures contain at least one clear violation of California’s
foreclosure law”. State of Arizona law encourages ex­
pediency over truth because mortgagees who file
fraudulent documents on the record are assured by law

22
a judge will never review or verify these documents
further impairing both the moral and legal obligations
required by a contract.
In this case, refusal by State of Arizona officials to
correct public records continue to cloud titles to peti­
tioner’s private property while giving full faith and
credit to fraudulent documents and resulting judicial
proceedings.
V.

Petitioner was required by contract to de­
fend title to his land and property; State
laws impaired this obligation. The law al­
lowed a party not named in the contract to
determine title to private property, absent
judicial review.

The parties agreed by private contract that peti­
tioner, then as grantor, held an obligation to defend ti­
tle to the land subject to this suit. It is essential that
this Court say what the law is regarding State law that
precludes a party from defending title as obligated un­
der the private contract. Again, Justice Story’s words
address this situation in § 703. “In the next place, what
may properly be deemed impairing the obligation of
contracts in the sense of the constitution ? It is perfectly
clear, that any law, which enlarges, abridges, or in any
manner changes the intention of the parties, resulting
from the stipulations in the contract, necessarily im­
pairs it. Any deviation from its terms by postponing, or
accelerating the period of performance, which it pre­
scribes; imposing conditions not expressed in the

23
contract; or dispensing with the performance of those,
which are a part of the contract; however minute, or ap­
parently immaterial in their effect upon it, impair its
obligation. Nor is this all. Although there is a distinc­
tion between the obligation of a contract, and a remedy
upon it there are certain remedies existing at the time,
when it is made, all of which are afterwards wholly ex­
tinguished by new laws, so that there remain no means
of enforcing its obligation, and no redress; such an abo­
lition of all remedies, operating in presenti, is also an
impairing of the obligation of such contract.”
The banking contracts that initiated this case are
hard bargains and in the form of London Interbank Of­
fered Rate (LIBOR) notes (See Exhibit V USCFC).
Such instruments were determined to be illegal per se
by the 2nd Circuit New York in Gelboim v. Bank of
America Corp. et al. 13-3636-cv (L) 2nd Circuit, page 4
opinion of 5/23/2016 lines 3 thru 6: “(1) horizontal
price-fixing constitutes a per se antitrust violation . . .
(3) a consumer who pays a higher price on account of
horizontal price-fixing suffers antitrust injury.” Peti­
tioner is a horizontally injured party who paid the
ultimate price resultant from this free market manip­
ulation. Page 32 lines 6 thru 8: “[S]ince price fixing
agreements have been adjudged to lack any redeeming
virtue, [they are] conclusively presumed illegal with­
out further examination ...” Quoting Catalano, 446
U.S. at 650.
On May 23, 2018, Chief Bankruptcy Judge, Daniel
P. Collins in Case No. 3:18-bk-01019-DPC and in the
related adversarial case No. 3:18-ap-00048-DPC,

24
ordered the attorney for the bank to prove the title the
bank held when it seized petitioner’s home on Febru­
ary 03, 2018. The attorneys on June 14, 2018 admitted
they had no proof of the title they claimed, see Exhibit
B USCFC. Prior to receiving this admission, and in or­
der to save his home, petitioner was forced to enter into
a settlement agreement with the banks and motioned
the court for Judicial Review of the Settlement (see Ex­
hibit E USCFC). However, review was declined despite
Congress’s expressed intention that a bankruptcy
judge act as an “arbiter of justice” compelled to review
any settlement affecting a bankruptcy estate.
Petitioner trusts Justice Story’s words to deter­
mine what constitutes an impairment of contractual
obligations in § 700. “It seems agreed, that, when the
obligation of contracts is spoken of in the constitution,
we are to understand, not the mere moral, but the legal
obligation of contracts. The moral obligation of con­
tracts is, so far as human society is concerned, of an im­
perfect kind, which the parties are left free to obey or
not, as they please. It is addressed to the conscience of
the parties, under the solemn admonitions of accounta­
bility to the Supreme Being. No human lawgiver can
either impair or reach it. The constitution has not in
contemplation any such obligation, but such only, as
might be impaired by a state, if not prohibited. It is the
civil obligation of contracts, which it is designed to
reach, that is, the obligation, which is recognised by,
and results from the law of the state, in which it is
made. If, therefore, a contract, when made, is by the law
of the place declared to be illegal, or deemed to be a

25
nullity, or a nude pact it has no civil obligation, because
the law in such cases forbids its having any binding
efficacy, or force. It confers no legal right on the one
party, and no correspondent legal duty on the other.
There is no means allowed, or recognised, to enforce it
for the maxim is, ex nudo pacto non oritur actio. But
when it does not fall within the predicament of being
either illegal, or void, its obligatory force is coextensive
with its stipulations.”
The banks misuse their granted charter by ignor­
ing moral accountability. Citizens are forced to do
business with criminal organizations under State laws
that must be declared unconstitutional to preserve our
union. In this case, even though the CEO of the bank
that initiated this LIBOR contract was sentenced to 30
years in prison for manipulation of these contracts,
plaintiff was not allowed a hearing to examine the title
held by the bank. Nationally, the government has
proven overwhelming evidence against banks of“robosigning”, illegal per se contracts, criminal indictments
and in this case admission of fraud (see Exhibit B
USCFC). Yet despite this the bankers are not held re­
sponsible for their actions by our government and thus
the consequences fall on the backs of every American
home owner to dispute these “hard bargains”. Enough
is enough.

26

CONCLUSION
“The right of the people to be secure in their
person, houses, papers and effects, against un­
reasonable searches and seizures shall not be
violated” Amendment IV
Plaintiff’s personal experience prays for the com­
passion of the Justices. Being removed from one’s
home under false pretenses is the most humiliating
and degrading experience a family may be forced to en­
dured. The “mind set” taken by State officials regard­
ing this situation can be summarized by the
statements most often heard by petitioner: “stop com­
plaining, just pay your mortgage” and impliedly “don’t
bother us with your petty problems”. Over the decades,
banking factions have methodically destroyed our
economy under the color of law leading to an estimated
17 and V2 million American families being removed
from their homes since 2007. The majority were dis­
possessed of their home through the use of State
statutes contrary to the constitution and/or the use of
fraudulent paperwork and illegal per se contracts.
Another wave of foreclosures is about to hit the legal
system resulting from this current “emergency” to
which there appears no remedy at law. Plaintiff prays
that this Court grant this petition of paramount im­
portance to perfect our union, to redeem our constitu­
tion and to restore justice as synonymous with equity.
Today, millions of American families are facing the
unconstitutional taking of their homes absent judicial
review, due process and equal justice under the law.

27

This is contrary to the intention of our founders and
the truth that no person is above the law.
This is the dawn of a new era as expressed in
John 8:32: “And you shall know the truth, and the
truth shall make you free” combined with John 14:6 “I
am the way, the truth and the life.”; and James 1:25
“(T)he one who looks intently into the perfect law of
freedom and perseveres, and is not a hearer who for­
gets, but a doer who acts, such a one shall be blessed
in what he does.”

AFFIDAVIT
I, Morgan Joseph, family Langan do certify, verify
and state under penalty of perjury under the laws for
the United States of America that the statements and
claims set forth in the forgoing petition and the refer­
ences to records, exhibits and appendices in related
cases are true and accurate to the best of my
knowledge and belief and are based upon an undying
love for America and allegiance to this Constitution for
the United States of America as executed without the
United States. I appear before this Court in person to
remove the clog upon the equity of redemption for my­
self and all those similarly situated. Humbly I come to
engage in a debate of consequence and to challenge ac­
cepted wisdom. I expected to be treated badly. None­
theless, I have stood undaunted. As was required and
expected by my oath. For it is Trust that is required to
secure freedom.

28

I pledge my life and invoke the same dedication
expressed by our great founder George Washington in
his Thanksgiving Proclamation on the third day of Oc­
tober in the year of our Lord 1789:1 am devoted “to the
service of that great and glorious Being, who is the be­
neficent Author of all the good that was, that is, or that
will be—That we may then all unite in rendering unto
him our sincere and humble thanks—for his kind care
and protection of the People of this Country.” I pray for
this Court to hear this case in equity.
May God Bless the United States of America,
.......................................................... Cestui Que Vie
Morgan Joseph Langan, Petitioner
Post Office Box 741
Cornville, Arizona
United States of America
(928) 649-1921

